                                       NATIONAL SCIENCE FOUNDATION
                                       OFFICE OF INSPECTOR GENERAL
                                          OFFICE OF INVESTIGATIONS


                           CLOSEOUT MEMORANDUM

Case Number: A02100048                                                        Page 1of 1



    NSF received a proposal1 that was alleged to include text plagiarized from multiple
    published papers. The PI did not write the proposal, but submitted it on behalf of
    the subject,2 who worked in the PI'S laboratory Our Report of Investigation was
    provided to NSF's Deputy Director, who made a finding of research misconduct and
    imposed sanctions. This Memorandum, our Report of Investigation, and the NSF
    Deputy Director's letter reflecting his decisions constitute the closeout for this case.
    Accordingly, this case is closed




         (redacted).
         (redacted).
                                                               .   .
                                                        NATIONALSCIENCEFOUNDATION
                                                            4201 WILSON BOULEVARD
                                                           ARLINGTON, VIRGINIA 22230




                             OFFICE OF THE
                            DEPUTY DIRECTOR




                              TTli'lED MATT, -,RETTJRN RECETPT REQJTESTW

                      Dr. :




                                Re: Notice of Misconduct in Science Deterniination

                  :Dear Dr.

-- --   - -       -     -                                          - -.    -   .-        - -       -
                             On or about July 10,2002, I                 submitted a proposal that you authored to the
                      National Science Foundation ("NSF'? entitled '
                                  As documented in the attached Investigative ~eport-pre~ared      by NSFs Office of
                      Inspector General ("OIG"), the proposal contained plagiarized text.



                               Under NSF's regulations, "research misconduct" is defined as "fabrication, falsification,
                        or plagiarism in proposing or performing research funded by NSF ..." 45 CFR § ,689.l(a). NSF
   .    .


                      : defines "plagiarism" as "the appropriation of ansther person's ideas, processes, results or words            .   ,



                        without giving appropriate
                                          .   .     credit.'' 45 CFR § 689'.1(a)(3). A finding of research misqonduct .     ..
                                                                                                                            .    .
              .         requires that:
                                (1) There be a significant departure, fiom accepted practices of. the relevant research.
                                    community, and
                                (2) The research misconduct be committed intentionally, or knowingly, or recklessly; and
                                 (3) The allegation be proven by a preponderance of evidence.

                       45 CFR 0 689.2(c).

                               Your proposal contains verbatim and paraphrased text from several source documents,
                       including two papers that were published in an edition of Plant Molecular Biology. By
                       submitting a proposal to NSF that copies the ideas or words of another without adequate
                       attribution, as described in the OIG Investigative Report, you misrepresented someone else's
                       work as your own. In addition, you failed to properly acknowledge or credit the authors of the
         source documents in your proposal. Your conduct unquestionably constitutes plagiarism. I
         therefore conclude that your actions meet the definition of "research misconduct" set forth in
         NSF's regulations.


                  Pursuant to NSF regulations, the Foundation must also determine whether to make a
         jnding of misconduct based on a preponderance of the evidence. 45 CFR § 689.2(c). Mer
          reviewing the Investigative Report and the University Committee Report, NSF has determined
          that, based on a preponderance of the evidence, your plagiarism was knowing and constituted a
          significant departure fiom accepted practices of the relevant research community. I am,
          therefore, issuing a h d i n g of research misconduct against you.

                  NSF's regulations establish three categories of actions (Group I, IT, and III) that can be
          taken in response to a finding of misconduct. 45 CFR §689.3(a). Group I actions include issuing
          a letter of reprimand; conditioning awards on prior approval of particulat activities fiom NSF;
          requiring that an institution or individual obtain special prior approval of particular activities
          from NSF; and requiring that an institutional representative certify as to the accuracy of reports
          or certifications of compliance with particular requirements. 45 CFR §689,3(a)(l). Group II
          actions include award suspension or restrictions on designated activities or expenditures;
          requiring special reviews of requests for funding; and requiring correction to the research record.
-   -   - 4 - € R t +689.%d@L - - G~QUP--=       a c t i o n s - i n c l u d e & o n _ ~ ~ ~ t i a n - ~ f iiwarckC.   -       -

          prohibitions on participation as NSF reviewers, advisors or consultants; and debarment or
          suspension from participation in NSF programs. 45 CFR § 689.3(a)(3).

                 In determining the severity of the sanction to impose for research misconduct, I have
          considered the seriousness of the misconduct; our determination that it was knowing, the
          determination that it was an isolated event and not part of a pattern; your willingness to accept
          responsibility for your actions; and the contrition that you demonstrated during the course of the
          investigative process. I have also considered other relevant circumstances. 45 CFR 5 689.3 (b).


                  I find your plagiarism to be serious; however, the amount of text that you'copied is
          relatively small. In addition; there are several additional mitigating factors that we considered.
          First, although you failed to provide proper attribution to the authors of the soiuce documents
          with respect to the text copied, you did cite to these sources in your paper, thereby lessening the
          impact that:your conduct had on the research record. Second, the OIG investigated and expressly
          found that your actions were an isolated event and not part of a pattern; Lastly, you admitted
          your error and displayed contrition for your actions.


                 I, therefore, am requiring that, if you submit a proposal to NSF fkom the date of this letter
          until May 14, 2007, an official fi-om your university must provide written assurance
                                                                                           . .       that the          .   .   .
                                                                                                         Page 3
                proposal adheres to the rules of proper scholarship and attribution as required by the NSF        .,



                Ropisal Guide. Such assurance should be sent to the Office of Inspector General, 42.01Wilson           ,   ..


.   .
        .       ~oulkvard,Arlington,
                            ...
                                     Virginia 22230.
                  .   . . .




                        Under NSF's regulations, you have 30 days after receipt of this letter to submit an appeal
                of this decision, in writing, to the Director of the Foundation. 45 CFR §689.10(a). Any appeal
                should be addressed to the Director at the National science Foundation, 4201 Wilson Boulevard,
                Arlington, Virginia 22230. If we do not receive your appeal within the 30-day period, this
                decision will become final. For your information we are attaching a copy of the applicable
                regulations. If you have any questions about the foregoing, please call                  Assistant .
                General Counsel, at (703) 292-8060.



                                                                    Sincerely,


                                                           8-r"-    Joseph Bordogna


                Enclosures
            .   - Investigative Report:
                  '


                - 45 C.F.R. 689                .   .
         National Science
            Foundation
    Office of Inspector General




                   Confidential
               Investigation Report
             Case Number A02100048

                         30 September 2004

CONFIDENTIAL

NSF OIG FORM2 2 (1103)
                 ~
                                              Summary
     The Office of Inspector General (OIG) has concluded a proposal submitted to
NSF by the PI contained approximately 44 lines of text plagiarized from multiple
sources. Although the PI submitted the proposal, the proposal's author was not
listed a s the P I or co-PI. As a result of its investigation, the university employing
the author and PI found the author engaged in research misconduct, and the PI did
not sufficiently fulfill her responsibility a s PI. It reprimanded both and took
additional steps to ensure the author does not work for the university in any
research capacity or claim any association with the university for a period of two
years. We recommend NSF send a letter of reprimand to the author informing him
he has committed research misconduct. We recommend NSF require, for 3 years
from the resolution of this case, the author provide certification t h a t his
submissions to NSF are properly referenced and accurate.


                                            OIG Inquiry
      We received a n allegation t h a t a proposa1,l submitted by the PI,2 contained
text plagiarized from multiple papers.3 We wrote to the PI to ask about the copied
text.4 I n her response, she said she had written none of the proposal; she was
merely a "sponsor" for a research associate (RA) in her laboratory.5 She said the RA
wrote the proposal, but, due to university policy, he was unable to submit it; thus,
she submitted it under her name as the sole Investigator.
      The P I said she discussed the allegation with the RA. The RA identified
additional text he had copied into the proposal without, a s the P I described it,
'"sufficiently' rewording" it.6 The PI had a general knowledge of the research area,
but was not sufficiently familiar with the publications cited in the proposal to be
aware of any overlap between the papers and the proposal.
     Because neither the PI nor the RA provided sufficient explanation for the
uncited text, the PI did not accept responsibility for the text in her proposal, and the
alleged author was not listed a s a n author of the proposal, we determined there was
sufficient substance to warrant a n investigation. Accordingly, we referred the
investigation to the university and deferred our investigation pending receipt of the
university's report.




    1  (redacted). The proposal is Appendix (A).
     2 (redacted).
     3 It was alleged the PI copied text from multiple sources, including a t least two papers appearing
i n the (redacted)Plant Molecdar Biology (redacted).
     4 Our letter, and the PI'S response, is Appendix (C).
     5 (redacted).
     6 Appendix (C), PI'S response, p. 2.
                                   The Universitv's Actions
                                          In vestiga tion
     The university's Vice Chancellor (VC)7 asked a Dean8 to carry out the
investigation. The Dean appointed a n Administrative Review Committee of three
professors. The committee reviewed the material provided by us as well as
additional material to determine if there was additional, undisclosed, copied text
and to assess evidence of a pattern. The committee interviewed the PI, the RA, and
several administrative staff to learn how the proposal was prepared and submitted.9
       Regarding the plagiarized text, the committee concluded:
        the instances of plagiarism i n [the PI'S] proposal were substantial (-35
        out of -108 lines in the Background section) and real, but minor in
        terms of impact. Specifically, the plagiarism is strictly one of
        sentences and phrases and in no case involves the misappropriation of
        other scholars' ideas or contributions. . . . [The RA] introduced the
        plagiarism into the proposal, and he admits to it. At the time the
        proposal was submitted, [the PI.] was unaware that plagiarism had
        occurred, and she did not contribute to it. However, as PI, she must
        accept responsibility for the content of the proposal.[lO]
     The committee did not find any evidence of a pattern of plagiarism by the RA.
However, the committee found other issues of concern associated with the RA's
preparation of the proposal. The RA had used a n incorrect, non-official title and
salary in several sections of the proposal. The RA also, apparently, altered an email
to obfuscate a criterion for PI eligibility he did not meet. The committee concluded:
        each 'incident'-plagiarism, use of a n elevated title, failure to correct
        the line item in the budget, selective editing of email-by itself is not
        a n egregious violation of professional standards and behavior, but
        taken together, they constitute a pattern and leave an impression of an
        individual with a loose sense of professional ethics.[lll
     The committee recommended the Dean reprimand the RA, coupled with a
warning about the likely serious consequences of a repeat occurrence. It
recommended a n official reprimand be given to the PI about her responsibilities as
PI and adherence to university rules. The committee also made several
recommendations internal to the university to help researchers who are applying
for funding.




     (redacted).
   8 (redacted) is the Dean of Life Sciences.
   9 The committee's report is Appendix (Dl.
   1OAppendix (Dl, report, p. 3.
   11 Ibid., p. 13.
                                      Subjects' Responses
     The PI and RA responded to the committee report.12 The PI agreed with the
findings of fact, but wanted to clarify her role as PI. She noted she had little time to
review the proposal, and, even if she had had adequate time, she likely would not
have detected the plagiarism. She suggested the problem in the budget was
traceable to NSF and would have been eliminated if NSF changed its deadline for
summer submissions. The RA said he did not understand what plagiarism was
when he wrote the proposal, although he does now. Regarding his requested salary
inflation in the budget, he thought his salary had increased from $53,000 to
$75,000. He said it was a mistake to use his incorrect title. He said he was sorry
for his mistake and will be more careful in the future.
                                          Adjudica tion
     The VC and Dean13 accepted the committee's findings and recommendations.
The university's adjudication raised several questions. It was not clear what
standard of proof was used and how apparently contradictory statements by the
Committee14 were resolved. I t was not clear whether the adjudicator made a
finding, and, if so, took any action. We wrote the VC, who clarified his adjudication
by providing the requested information.15 The Dean sent letters of reprimand to the
RA and PI.16


                                       OIG's Assessment
     We believe the committee followed reasonable procedures and accept its report
as accurate and complete; we also accept it in lieu of conducting our own
independent investigation. We note, however, in our review of the university's
investigation, we found approximately nine additional lines text the RA copied that
the university had not identified, bringing the total to 44 lines from four research
papers. While the RA included some references to the papers from which he copied,
the attribution was insufficient to indicate the text was copied verbatim from the
source.


    12 The PI'S and RA's responses to the university report are Appendu (El.
    13 Acting Dean (redacted) replaced Dean (redacted).
    14 For example, the committee said the RA's plagiarism was not an egregious violation of
professional standards (p. 13 of its report, Appendix (D)), but, nonetheless, concluded his citation
practice significantly departed from those professional standards (p. 10 of its report).
    15 Our letter and the VC's (the adjudicator's) response are Appendix (F). The adjudicator did not
find the committee's language contradictory and concluded the RA's act was a significant departure
that warranted a finding, but given the nature and extent of the plagiarism, was not egregious
enough to warrant more severe action.
    16 The letters are Appendix (GI. Neither the committee nor adjudicator concluded the PI'S action
was misconduct; nonetheless, she received a stern letter of reprimand for her failure to meet the
responsibilities of a PI as specified in university.policy and her failure to provide the expected
mentoring to the RA. The letter will remain in the PI'S personnel file for 5 years.
     The RA admitted he copied text without providing appropriate attribution.
The RA's admission is sufficient for us to conclude a preponderance of the evidence
shows that the RA copied, without acceptable attribution, approximately 44 lines of
text from published sources.17
       [Tlhe committee concluded that the non-original material was not
       properlv cited to the author(s) of the material, and further that the
       citation practice in the NSF proposal departed significantly from the
       desired and practiced standard of scholarship for publication in [the
       RA's] and [PI'S] field of science.[l8]
    We concur with the committee that the RA's copying represents a significant
departure from the accepted standards in the RA's field.


     The committee assessed the RA's intent in copying text from the papers into
the proposal as knowing. The committee noted "[hle does know what plagiarism is
and he admits that he copied some text from articles because he could not write it
better himself."lg We conclude the RA's other misrepresentations in the proposal-
incorrect title and salary-go to the RA's general state of mind during preparation
of the proposal, in w h c h "[tlhe committee notes that there is intent to deceive in the
misuse of title, and possibly in allowing a n inappropriate salary to be listed on the
budget."20 We concur with the committee's assessment and conclude a
preponderance of evidence shows the RA acted knowingly when he copied uncited
text into the proposal. Hence, we conclude the RA's action is plagiarism and
constitutes research misconduct.


                               OIG's Recommended Disposition
     In deciding what actions are appropriate when making a finding of research
misconduct, NSF must consider several factors. These factors include how serious
the misconduct was; the degree to which the misconduct was knowing, intentional,
or reckless; whether it was a n isolated event or part of a pattern; whether it had
significant impact on the research record; and other relevant circumstances.21
     Given the amount of plagiarized text, the existence of some references to the
papers from whence the text came, and the RA's admission, we do not consider the
RA's actions to be a s serious as other cases we have investigated. However, it is

    17 We note the subject admitted to copying approximately 35 lines. As noted on p. 3 of this ROI,
we found a n additional 9 lines of copied text, bringing the total to approximately 44 lines of copied
text.
    18 Appendix (Dl, report p. 10.
    19 Ibid., p. 11; emphasis added.
    2O Ibid., p. 12.
    21 45 CFR Q 689.3(b).
still serious enough to warrant a finding and action by NSF. Having no evidence to
the contrary, we also accept the university's conclusion t h a t the RA's actions were
isolated and not part of a pattern.
     Therefore, we recommend NSF send a letter of reprimand to the RA.22 This
action mirrors the university's action. We also recommend NSF require the RA
provide certifications to OIG, for 3 years from the resolution of this matter, that his
submissions to NSF are properly referenced and accurate.23 This 3-year period
consists of 2 years the RA cannot use the university's affiliation plus a 1-year
transition period back to the university.


                                         RA's Response
     The RA responded to our draft Report of Investigation. We do not find his
rebuttal convincing; consequently, our recommendations stand. His primary point
is that, as a foreign-born scientist, using English represents an obstacle.24 He wrote
he did not know what plagiarism was when he wrote the proposal. As we noted i n
the Intent section of this Report, the RA used t h a t excuse with the committee,
which, similarly, did not find it credible (see fn. 19 and associated text).
Furthermore, while the RA did receive his B.S. and M.S. i n Korea, he received his
Ph.D. in the United States i n 1992 and has successfully worked in the U.S. for the
past 12 years. I n addition to the research training he received as a graduate
student, he h a s completed two post-doctoral tenures a t two American universities,
and he h a s demonstrated a sufficient enough command of English and publishing
practices to have published more t h a n fifteen research papers i n six different
journals.




   22 This is a Group I action; 45 CFR 5 689.3(a)(l)(i).
   23 This is a Group I action; 45 CFR §689.3(a)(l).
    24The RA also suggested there was no reason for h m to plagiarize. We disagree and note the RA
admitted to the committee he copied some text because he could not write it better (see fn. 19 and
associated text). The RA noted we referred to him as RA in this Report although he was not
appointed to a n RA position. We used RA solely as a n acronym for research associate to denote that
he was an associate of the PI who performed research, rather than as a formal title.
